<html>
<title> - CRIMINAL JUSTICE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                           CRIMINAL JUSTICE

=======================================================================

                               EXCERPTED

                                FROM THE 

                           2015 ANNUAL REPORT

                                OF THE

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 8, 2015

                               __________

 Printed for the use of the Congressional-Executive Commission on China
 
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.cecc.gov
         
         
                               ____________
                               
                               
                         U.S. GOVERNMENT PUBLISHING OFFICE
98-307 PDF                     WASHINGTON : 2016                         
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="deb9aeb19ebdabadaab6bbb2aef0bdb1b3f0">[email&#160;protected]</a>  

 
                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

CHRISTOPHER H. SMITH, New Jersey,    MARCO RUBIO, Florida, Cochairman
Chairman                             JAMES LANKFORD, Oklahoma
ROBERT PITTENGER, North Carolina     TOM COTTON, Arkansas
TRENT FRANKS, Arizona                STEVE DAINES, Montana
RANDY HULTGREN, Illinois             BEN SASSE, Nebraska
TIMOTHY J. WALZ, Minnesota           SHERROD BROWN, Ohio
MARCY KAPTUR, Ohio                   DIANNE FEINSTEIN, California
MICHAEL M. HONDA, California         JEFF MERKLEY, Oregon
TED LIEU, California                 GARY PETERS, Michigan

                     EXECUTIVE BRANCH COMMISSIONERS

                 CHRISTOPHER P. LU, Department of Labor
                   SARAH SEWALL, Department of State
                STEFAN M. SELIG, Department of Commerce
                 DANIEL R. RUSSEL, Department of State
                  TOM MALINOWSKI, Department of State

                     Paul B. Protic, Staff Director

                Elyse B. Anderson, Deputy Staff Director

                                  (ii)
                          
                            Criminal Justice

                              Introduction

    Criminal justice was an area of significant concern during 
the Commission's 2015 reporting year. Chinese authorities 
introduced discrete reforms that could improve the criminal 
justice system's fairness and accuracy.\1\ The Commission did 
not observe statistics establishing the impact of reforms from 
the past reporting year, such as whether they led to a decrease 
in death sentences or a higher rate of convictions being 
overturned on appeal. A May 2015 report by an international 
human rights non-governmental organization (NGO) found that 
Chinese authorities have failed to fully enforce certain 
criminal justice reforms introduced in past years, especially 
measures that provide for excluding suspects' confessions and 
written statements obtained through torture.\2\ Fundamental 
structural issues--including the dominance of police \3\ in the 
police-procuratorate-court ``iron triangle'' \4\ and the 
overriding influence of the Chinese Communist Party \5\--
remained impediments to creating a criminal justice system that 
comports with standards dictated by both Chinese law \6\ and 
international human rights instruments.\7\ Although reform-
minded individuals both within and outside the government 
continued to press for reforms furthering the protection of 
human rights,\8\ their ability to bring about meaningful reform 
was constrained in a political climate that emphasized 
perpetuating one-party rule at the expense of individual 
freedoms.\9\

              Alternatives to the Criminal Justice System

    A narrow view of criminal justice in China that considers 
only formal criminal processes fails to capture the full 
breadth of extrajudicial measures used by the Chinese 
government and Communist Party. So-called ``administrative'' or 
otherwise non-criminal measures,\10\ disciplinary actions by 
the Party against its own members,\11\ and other actions taken 
by Chinese authorities that lack adequate legal support \12\ 
continued to be tools for suppressing behavior that the 
government and Party deem dangerous, socially undesirable, or 
threatening to the existing political structure.\13\ For 
example, an amendment to the PRC Food Safety Law to take effect 
in October 2015 provides that people who add inedible 
substances to food can be detained for 15 days without being 
afforded the protections in the PRC Criminal Procedure Law.\14\
    While not labeled ``criminal'' by the Chinese government, 
these ``administrative,'' Party-controlled, and extralegal 
measures can restrict personal liberty as severely, if not 
more, than some sanctions allowed by the PRC Criminal Law,\15\ 
and lack sufficient judicial procedures.\16\ These deprivations 
of liberty raise concerns under international law because of 
the Chinese government's failure to observe international norms 
relating to the right to a fair trial,\17\ including as set 
forth in the International Covenant on Civil and Political 
Rights (ICCPR),\18\ which China signed in 1998 but still has 
not ratified.\19\


                        administrative measures


    In December 2013, the Chinese government ended the 
longstanding practice of reeducation through labor (RTL)--a 
form of administrative detention that could result in up to 
four years' deprivation of liberty without a trial.\20\ The 
Commission's 2014 Annual Report cautioned, however, that 
alternative ``administrative'' measures remained after RTL's 
abolition.\21\ Chinese authorities continued to use various 
extrajudicial measures during this reporting year.\22\ For 
instance, although the PRC Mental Health Law took effect in 
2013,\23\ the use of psychiatric facilities to detain people 
who do not necessarily have mental health conditions continued 
to receive international attention as a form of arbitrary 
detention.\24\ A report by a China-based NGO found that, in 
2014, the government used mental health facilities to detain 
rights advocates.\25\ Attention has also focused on China's use 
of involuntary detention of drug addicts in compulsory drug 
treatment centers,\26\ with the public health advocacy NGO 
Beijing Aizhixing Institute questioning the conditions of 
confinement and use of forced labor at drug treatment centers 
in a February 2015 submission to the UN Committee against 
Torture.\27\
    A focal point of concern has been ``custody and 
education,'' a form of administrative detention that can 
deprive people of liberty for up to two years.\28\ In response 
to a request through China's open government information 
system, the government reported there were 116 ``custody and 
education'' centers as of August 2014.\29\ Authorities have 
largely used this form of detention against sex workers, and 
sometimes their customers,\30\ though authorities have also 
reportedly used it against government critics.\31\ Although 
UNAIDS has advised, ``Sex workers and clients should have 
access to high-quality educational opportunities,'' \32\ a 
report by the international NGO Asia Catalyst concluded that 
``custody and education'' detainees ``are required to engage in 
long hours of uncompensated labor, and have few opportunities 
for skill training and education.'' \33\ The release of actor 
Huang Haibo in December 2014 after six months' detention for 
soliciting a sex worker brought greater attention to the use of 
``custody and education,'' \34\ but the centers remained in 
use.\35\


              chinese communist party disciplinary process


    The approximately 87 million members of the Chinese 
Communist Party \36\ are subject to a complex and opaque 
disciplinary process entirely within the Party's control.\37\ 
The Party has special measures for investigating, detaining, 
and punishing members prior to transferring them to the formal 
criminal justice system.\38\ Party members can be subject to a 
Party disciplinary process called shuanggui (sometimes 
translated as ``double designation''),\39\ which requires them 
to appear for interrogation at a designated time and place.\40\ 
Shuanggui not only contravenes the right to be free from 
arbitrary detention guaranteed by the Universal Declaration of 
Human Rights and the ICCPR,\41\ but also violates Chinese 
law.\42\ Shuanggui remains governed by internal Party rules 
\43\ despite calls by voices ranging from Chinese legal experts 
\44\ to a member of the Chinese People's Political Consultative 
Conference \45\ for the Party to consider bringing shuanggui 
into the legal system.
    President and Party General Secretary Xi Jinping's ongoing 
anticorruption campaign brought new emphasis on the 
intersection of the Party disciplinary process with the formal 
criminal justice process.\46\ By April 2015, the campaign had 
led to the removal of 100 high-ranking officials in addition to 
scores of low-ranking ones.\47\ Most prominently, the June 2015 
conviction of Zhou Yongkang, a former member of the Standing 
Committee of the Political Bureau of the Communist Party 
Central Committee and Minister of Public Security, for bribery, 
abusing power, and disclosing state secrets followed months of 
detention under the Party's disciplinary process.\48\ The 
Tianjin No. 1 Intermediate People's Court sentenced Zhou to 
life in prison.\49\ The PRC Criminal Procedure Law provides 
that trials be held in open court sessions by default.\50\ In 
Zhou Yongkang's case, however, the government chose to hold the 
trial entirely behind closed doors, citing the legal exception 
for cases involving disclosure of state secrets.\51\
    The lack of transparency regarding Party members' 
experiences when subjected to disciplinary measures complicates 
efforts to evaluate the extent to which the Party's procedures 
comply with international human rights norms.\52\ The limited 
reports available indicate that, at a minimum, there are 
violations with respect to the arbitrary nature of the 
detention as well as the conditions of detention.\53\


                       other extralegal measures


    During the past reporting year, the Party and government 
continued to take actions without legal basis in order to 
silence voices perceived as threatening to the Party's 
control.\54\ These extralegal measures were expedient tools for 
suppressing dissent and, because the Party and government do 
not formally recognize them, have been especially difficult to 
monitor and evaluate.\55\ Measures range from home confinement 
(sometimes called ``soft detention'' for the Chinese term 
ruanjin) \56\ to holding people at secret detention sites known 
as ``black jails.'' \57\ Prominent human rights lawyer Gao 
Zhisheng,\58\ for example, was released from prison in August 
2014 following completion of a three-year sentence for 
``inciting subversion of state power.'' \59\ After his release, 
however, he remained under 24-hour surveillance at his home 
with limited telephone access.\60\

                              Criminal Law

    During the Commission's 2015 reporting year, important 
developments took place in the formal criminal justice system 
with respect to both the substantive laws that could be used to 
support a conviction as well as the procedures that people 
undergo once identified as criminal suspects.
    This past year the Chinese government adjusted the types of 
conduct subject to criminal sanctions and the severity of 
possible punishments. The National People's Congress Standing 
Committee passed the Ninth Amendment to the PRC Criminal Law in 
August 2015 with 51 revisions that will take effect in November 
2015.\61\ The Ninth Amendment included positive changes such as 
reducing the number of capital crimes \62\ and increasing 
protections for vulnerable populations by criminalizing the 
buying of women and children.\63\ [For more information, see 
Section II--Human Trafficking.] Under the previous iteration of 
the law, Article 291 criminalized gathering a crowd to disturb 
order in a public place.\64\ The new addition to Article 291 
punishes the fabrication and dissemination of certain types of 
false information--including regarding ``dangerous 
situations,'' ``epidemics,'' and ``disasters''--on the Internet 
and other media with up to seven years' imprisonment.\65\ The 
amendment did not include definitions of key terms like 
``dangerous situations,'' ``epidemics,'' and ``disasters.'' 
\66\ An amendment to Article 308 provides up to three years' 
imprisonment for the transmission of certain information 
regarding court cases that are not to be tried in public.\67\ 
The amendments to Articles 291 and 308 thus create new criminal 
liability for transmitting various types of information, in 
addition to existing PRC Criminal Law provisions criminalizing 
the disclosure of state secrets.\68\ The April 2015 sentencing 
of veteran journalist Gao Yu to seven years' imprisonment for 
allegedly leaking state secrets \69\ was criticized by foreign 
governments \70\ and international non-governmental 
organizations (NGOs) \71\ as an abuse of criminal laws to 
silence peaceful criticism of the government. [For more 
information on Gao's case, see Section II--Freedom of 
Expression.]


               laws criminalizing terrorism and extremism


    The Chinese government's June 2015 report on ``Progress in 
China's Human Rights in 2014'' highlighted efforts to combat 
terrorism, reporting ``[T]he judicial organs severely punished 
crimes such as the terrorist attacks at Tiananmen on October 
28, 2013 and at Kunming railway station on March 1, 2014 to 
ensure the safety of life and property of the people.'' \72\ 
During the 2015 reporting year, the government considered 
adopting a counterterrorism law \73\ and passed revisions to 
the PRC Criminal Law regarding the punishments for 
``terrorism'' and ``extremism.'' \74\ The Supreme People's 
Court's (SPC) 2014 work report noted a 14.8-percent increase 
over the previous year in cases handled by Chinese courts 
involving terrorist attacks and ``separatism.'' \75\ The draft 
PRC Counterterrorism Law has garnered attention for its 
potential to criminalize activities that are freedoms protected 
under international human rights norms.\76\ One international 
human rights NGO warned that ``in its present form [the PRC 
Counterterrorism Law (Draft)] is little more than a license to 
commit human rights abuses.'' \77\


                           ``pocket crimes''


    This past year, Chinese authorities expanded the use of 
``pocket crimes'' (koudai zui) \78\--such as ``gathering a 
crowd to disturb social order'' \79\--so named because Chinese 
authorities incorporate a wide variety of conduct within their 
definitions.\80\ In May 2015, authorities indicted Pu Zhiqiang, 
a public interest lawyer, with ``inciting ethnic hatred'' \81\ 
and ``picking quarrels and provoking trouble'' \82\ related to 
comments on his microblog.\83\ The PRC Criminal Law provision 
for ``picking quarrels and provoking trouble'' lists four 
relatively specific acts,\84\ and the SPC and Supreme People's 
Procuratorate have issued a joint judicial interpretation of 
the crime.\85\ One expert on Chinese law commented that the 
crime ``as applied to Pu's case has to be stretched beyond all 
recognition in order to apply.'' \86\ Authorities initially 
detained Pu in May 2014.\87\
    Authorities have used the offense of ``inciting subversion 
of state power'' \88\ to imprison human rights advocates such 
as lawyer Gao Zhisheng in 2006,\89\ Nobel Peace Prize laureate 
Liu Xiaobo in 2009,\90\ and, in May 2015, democracy advocate 
Liu Jiacai.\91\ Similarly, authorities have charged people whom 
the government and Party see as threats with engaging in 
``illegal business activity.'' \92\ Authorities arrested Guo 
Yushan,\93\ founder of the think tank and NGO Transition 
Institute, in January 2015.\94\ The Beijing Municipal Public 
Security Bureau accused Guo of ``illegal business activity'' 
for publishing the Transition Institute's various research 
reports on tax reforms, education equality, legal reforms, and 
social and economic issues.\95\ Authorities released Guo and He 
Zhengjun, a Transition Institute manager arrested on the same 
charge, on ``guarantee pending further investigation'' 
(``bail'') the week prior to President Xi Jinping's state visit 
to the United States in September 2015.\96\ In December 2014, a 
district court in Beijing sentenced Shen Yongping,\97\ the 
creator of a documentary about the history of constitutional 
governance in China, to one year's imprisonment on the basis 
that disseminating copies of the film constituted ``illegal 
business activity.'' \98\

                           Criminal Procedure

    Chinese authorities' implementation of key provisions in 
the 2012 PRC Criminal Procedure Law (CPL) \99\ remained 
inconsistent \100\ during the Commission's 2015 reporting year. 
Even when Chinese authorities followed the CPL, they continued 
to target government critics in an effort to suppress rights 
advocacy.\101\ In March 2015, authorities detained five women's 
rights advocates \102\ on suspicion of ``picking quarrels and 
provoking trouble'' \103\--later changed to ``gathering a crowd 
to disturb order in a public place'' \104\--for planning to 
distribute materials calling attention to sexual 
harassment.\105\ Authorities released the five women over a 
month later on bail (also translated as ``guarantee pending 
further investigation''),\106\ meaning that they remained 
criminal suspects who were limited in their freedom of movement 
and communications for an investigation period of up to 12 
months.\107\ After their release, one of the women reported 
that authorities summoned her back for eight hours of 
interrogation and verbal abuse.\108\ As the government 
reportedly continued surveillance of the women,\109\ another 
Chinese women's rights advocate wrote, ``The police punished my 
friends to intimidate other social and political activists.'' 
\110\


               access to counsel and treatment of lawyers


    Following the 2012 CPL's clarification of procedures for 
lawyer-client contact,\111\ the Supreme People's Procuratorate 
(SPP) introduced new regulations in December 2014 aimed at 
improving the ability of lawyers to perform their professional 
duties by, for example, emphasizing the right to lawyer-client 
meetings in criminal cases.\112\ In March 2015, the head of the 
SPP reportedly stated that all levels of procuratorates should 
safeguard the rights of lawyers who represent defendants in 
major bribery cases \113\--a noteworthy development because 
lawyer-client contact had been especially constrained in cases 
involving serious bribery, endangering state security, and 
terrorism.\114\ In general, however, lawyers continued to face 
substantial impediments when trying to play a meaningful role 
in criminal cases.\115\ As explained by a Chinese legal 
scholar, ``[T]he Chinese government was not prepared to adopt 
broad legal protections for defendants, including the right to 
remain silent and allowing lawyers to be present during 
interrogations.'' \116\ The Commission did not observe any 
change in the long-standing problem that most criminal suspects 
are not assisted by counsel.\117\
    Criminal detentions and prosecutions of lawyers, 
particularly rights defense lawyers who took on cases deemed 
sensitive by the government, continued during the reporting 
year.\118\ Article 306 of the PRC Criminal Law creates a strong 
disincentive for lawyers to collect evidence on their clients' 
behalf because the government has used the provision to allege 
that lawyers who take on sensitive cases have fabricated 
evidence or induced witnesses to change their testimony.\119\ A 
revision to the PRC Criminal Law amended Article 309 to 
stipulate that ``insulting, defaming, or threatening a judicial 
officer'' and ``engaging in other acts that seriously disrupt 
the order of the court'' may be punishable by up to three 
years' imprisonment.\120\ Over 500 lawyers signed an open 
letter in November 2014 expressing concerns that this provision 
could criminalize lawyers' speech during trials if they 
challenge the court.\121\
    Lawyers also faced reprisals short of formal criminal 
prosecution. In December 2014, authorities detained defense 
lawyer Zhang Keke after he invoked China's Constitution in 
court while representing a Falun Gong practitioner.\122\ 
Approximately 260 Chinese lawyers signed an open letter 
protesting Zhang's treatment.\123\ In April 2015, court 
personnel removed defense lawyer Chen Jian'gang from the 
courtroom and detained him after he objected to the court's 
decision to shackle his client in contravention of Chinese 
law.\124\
    Concerns for lawyers' safety go beyond official government 
action. In April 2015, unidentified assailants attacked four 
defense lawyers outside a court after they had publicly accused 
police of having coerced their clients into confessing.\125\ 
Hundreds of lawyers responded by calling for an investigation 
into the beatings.\126\ [For information on a crackdown against 
rights lawyers launched in July 2015, see Section III--Access 
to Justice--Harassment and Abuse of Human Rights and Public 
Interest Lawyers.]


         sources of evidence: torture and wrongful convictions


    Numerous reports have surfaced over the past decade of 
innocent people convicted in China based on faulty 
evidence.\127\ The Chinese government for years has 
acknowledged the problem of wrongful convictions, including the 
use of torture to extract confessions.\128\ In a major policy 
document issued in October 2014, the Chinese Communist Party 
emphasized strengthening procedures for gathering and using 
evidence in criminal cases.\129\ In March 2015, the head of the 
Supreme People's Court (SPC) apologized for past wrongful 
convictions and called on courts to improve practices.\130\ 
Also in March 2015, the Supreme People's Procuratorate (SPP) 
issued ``Five Major Cases in Correcting Wrongful Convictions.'' 
\131\ In April 2015, the SPP announced that it was launching a 
special campaign to rectify ``miscarriages of justice.'' \132\ 
According to a December 2014 media report, the SPC was 
reportedly drafting more detailed guidance in conjunction with 
other government bodies regarding the procedures for excluding 
evidence, but this document had not been released publicly as 
of September 2015.\133\
    Sources continued to report on high-profile wrongful 
convictions this past year.\134\ In December 2014, the Inner 
Mongolia Autonomous Region High People's Court posthumously 
overturned an April 1996 guilty verdict for rape and murder 
that resulted in the swift execution of Huugjilt, an 18-year-
old ethnic Mongol.\135\ The case's handling came under intense 
scrutiny when, in December 2014, the commanding officer faced 
criminal charges for using force to extract confessions in 
other cases \136\--a rare example of police being held 
accountable for their interrogation practices.\137\ Huugjilt 
reportedly confessed to the murder after 48 hours of 
interrogation but subsequently proclaimed his innocence.\138\ 
Other examples from the 2015 reporting year included the Fujian 
Province High People's Court's decision in August 2014 to 
overturn Nian Bin's conviction for murder after eight years in 
prison following a coerced confession,\139\ and the Shandong 
Province High People's Court's review of the infamous 1995 
execution of Nie Shubin for a murder he did not commit.\140\
    In early 2015, the Party called for an end to quotas for 
``arrests, indictments, guilty verdicts and case conclusions.'' 
\141\ Depending on the implementation of such a plan,\142\ this 
change could positively influence the incentive structure for 
police, as well as for prosecutors and judges, by reducing 
pressure to extract confessions.\143\ Chinese authorities took 
steps to require that police film all interrogations \144\ and 
to increase accountability of individual police officers for 
their conduct.\145\ In addition, discussions continued 
regarding possible adoption of a new PRC Detention Center 
Law,\146\ covering interrogation conditions at centers 
controlled by the Public Security Bureau.\147\ One Chinese law 
professor pointed out, however, that rules for excluding 
illegally obtained evidence and other discrete legal reforms 
are insufficient,\148\ and improvements to the overarching 
structure of the criminal process are necessary.\149\
    Chinese authorities have stated their intention to place 
greater emphasis on trials,\150\ including increasing citizen 
participation in the trial process.\151\ For those cases 
proceeding from police investigation to formal charges and a 
trial, however, defendants regularly faced substantial 
challenges when countering the government's case. China had a 
nearly 100-percent conviction rate as of 2013 \152\ and has 
long had a practice of leniency for those who confess and 
severity for those who do not.\153\ Witnesses rarely appear in 
court for questioning,\154\ and the Commission observed few 
reports of successful use of the rules on excluding illegally 
obtained evidence contained in the 2012 Criminal Procedure 
Law.\155\ In a May 2015 report, Human Rights Watch (HRW) 
reviewed 158,000 criminal court verdicts published on the 
Supreme People's Court (SPC) website and found 432 in which the 
suspects alleged torture.\156\ HRW reported that, ``The 
defendants were convicted in all 432 cases, and judges excluded 
confessions in only 23 cases (6 percent of the verdicts) due to 
concerns over police torture. And even in those 23 cases, the 
defendants were convicted.'' \157\
    The conditions under which suspects confess will be subject 
to detailed international scrutiny on November 17 and 18, 2015, 
when the UN Committee against Torture (Committee) reviews 
China's compliance with the Convention against Torture and 
Other Cruel, Inhuman or Degrading Treatment or Punishment.\158\ 
A number of NGOs have submitted to the Committee issues of 
concern ranging from an insufficient legal definition of 
torture under Chinese law to the use of extralegal detention 
facilities such as ``black jails.'' \159\


                          clemency and parole


    The Chinese government took steps during the 2015 reporting 
year to address the use of clemency and parole in criminal 
cases. Following issuance in 2014 of various new rules on 
commutations and parole by the SPC,\160\ Supreme People's 
Procuratorate (SPP),\161\ and the Ministry of Justice,\162\ the 
SPP announced in March 2015 that 252 officials were punished in 
2014 for ``illegally granting parole or shortening prison 
terms.'' \163\ In February 2015, the SPC provided additional 
guidance in the form of eight typical cases involving 
commutations, parole, and temporarily serving sentences outside 
prison.\164\ In April 2015, the Ministry of Justice issued an 
``Opinion on Further Deepening Prison Affairs Openness'' that 
included provisions on information that should be provided to 
the public as well as to the families of prisoners.\165\ The 
Ministry of Justice also warned about abuses of the medical 
parole system.\166\ This past year, there were allegations that 
some wealthy prisoners bought patents to take advantage of an 
early release arrangement for prisoners who developed new 
technologies.\167\
    The PRC Criminal Law further allows early release on the 
basis of good behavior.\168\ American geologist Xue Feng was 
released on this basis in April 2015, 10 months before the end 
of his 8-year sentence.\169\ The Beijing No. 1 Intermediate 
People's Court convicted Xue in July 2010 of ``illegally 
procuring state secrets'' following a trial reportedly marred 
by numerous procedural abuses.\170\

                             Death Penalty

    In its 2014 annual report on the death penalty, the 
international NGO Amnesty International once again was unable 
to publish an exact figure for executions in China because of 
the information's classification and inaccessibility as a state 
secret.\171\ Amnesty International noted, however, 
``[A]vailable information indicates that thousands of people 
are executed and sentenced to death in China each year.'' \172\ 
There were signs that the overall trend of curbing use of the 
death penalty had not reversed course.\173\ The U.S.-based 
human rights organization Dui Hua Foundation estimated that 
executions would stay steady at about 2,400 in 2013 and 2014 
because ``[a]nnual declines in executions recorded in recent 
years are likely to be offset in 2014 by the use of capital 
punishment in anti-terrorism campaigns in the Xinjiang Uyghur 
Autonomous Region and the anticorruption campaign nationwide.'' 
\174\
    Public support in China for retaining the death penalty 
remained strong, including in corruption cases.\175\ 
Nonetheless, in line with the goal announced at the Third 
Plenum of the 18th Party Congress Central Committee in November 
2013 \176\ of ``gradually reducing the number of crimes 
punishable by the death penalty,'' \177\ the Chinese government 
reduced the number of capital crimes from 55 to 46.\178\ The 
crimes for which the death penalty is most commonly applied 
were not among those on the list.\179\
    The Chinese government continued to reevaluate the 
procedures used to determine and carry out death 
sentences,\180\ procedures that were overhauled in 2006 when 
the SPC took back final review power of capital cases.\181\ In 
January 2015, the SPC issued new measures that detailed how 
judges should take defense lawyers' opinions into account 
during the review of death sentences.\182\ Courts also 
continued to face scrutiny from the general public regarding 
whether death sentences were warranted in individual 
cases.\183\ An example of public pressure followed the April 
2015 decision by a court in Anyue county, Ziyang municipality, 
Sichuan province, to suspend the death sentence of Li Yan, a 
woman who murdered her abusive husband.\184\ [For more 
information on Li Yan's case, see Section II--Status of Women.] 
Another point of concern was the conditions under which 
detainees on death row are held,\185\ with reports that one 
prisoner was handcuffed and shackled for eight years.\186\
    According to state-run media, the Chinese government 
announced the end of harvesting organs from executed prisoners 
starting in January 2015,\187\ but further reported that death 
row prisoners remained ``among the qualified candidates for 
donations.'' \188\ International medical professionals and 
human rights advocates expressed concerns regarding the 
voluntary nature of such donations.\189\ One international 
human rights NGO cautioned that weaning China off harvesting 
organs from executed prisoners was a ``marathon, not a 
sprint.'' \190\
    Notes to Section II--Criminal Justice

    \1\ See, e.g., Supreme People's Court, Measures Concerning 
Listening to Defense Lawyers' Opinions in Handling Death Penalty Review 
Cases [Zuigao renmin fayuan guanyu banli sixing fuhe anjian tingqu 
bianhu lushi yijian de banfa], issued 29 January 15; Supreme People's 
Procuratorate, People's Procuratorate Guidelines for Reviews of 
Criminal Case Appeals [Renmin jianchayuan fucha xingshi shensu anjian 
guiding], issued 29 April 14, reprinted in Procuratorial Daily, 21 
November 14.
    \2\ Human Rights Watch, ``Tiger Chairs and Cell Bosses: Police 
Torture of Criminal Suspects in China,'' May 2015, 3.
    \3\ Hu Wei, ``Experts Call for Less Police Dominance in China Legal 
System,'' Voice of America, 10 September 14; Murray Scot Tanner and 
Eric Green, ``Principals and Secret Agents: Central Versus Local 
Control Over Policy and Obstacles to `Rule of Law' in China,'' China 
Quarterly, Vol. 191 (September 2007), 644; Kam C. Wong, Chinese 
Policing, History, and Reform (New York: Peter Lang Publishing, 2009), 
157. The colloquial term ``police'' encompasses a variety of law 
enforcement officials in China, e.g., local public security officers, 
state security officers, and People's Armed Police.
    \4\ Mike McConville, Criminal Justice in China: An Empirical 
Inquiry (Northampton, MA: Edward Elgar, 2011), 378-79.
    \5\ ``Xi Makes the Rules,'' Economist, Analects (blog), 24 October 
14.
    \6\ See, e.g., PRC Criminal Procedure Law [Zhonghua renmin 
gongheguo xingshi susong fa], passed 1 July 79, amended 17 March 96, 14 
March 12, effective 1 January 13, arts. 33, 54, 121; Human Rights Watch 
(HRW), ``Tiger Chairs and Cell Bosses: Police Torture of Criminal 
Suspects in China,'' May 2015. HRW's report describes the Chinese 
government's failure to fully implement Articles 33, 54, and 121 of the 
PRC Criminal Procedure Law. See also Chinese Human Rights Defenders, 
``New Rules on Lawyers' Input on Death Penalty Reviews Too Weak To Cut 
Down on Executions,'' 5 February 15.
    \7\ See, e.g., UN Convention against Torture and Other Cruel, 
Inhuman or Degrading Treatment or Punishment, adopted by UN General 
Assembly resolution 39/46 of 10 December 84, entry into force 26 June 
87; International Covenant on Civil and Political Rights, adopted by UN 
General Assembly resolution 2200A (XXI) of 16 December 66, entry into 
force 23 March 76.
    \8\ See, e.g., ``China's Broken Justice System,'' New York Times, 
17 March 15. During an annual report to the National People's Congress, 
President of the Supreme People's Court Zhou Qiang reportedly stated, 
``We deeply reproach ourselves for letting wrongful convictions happen 
. . ..'' Luo Guoping, ``Committee Member Li Wai: `Shuanggui' Must Be 
Clearly Stipulated by Law'' [Li wai weiyuan: ``shuanggui'' ying minque 
rufa], Caixin, 9 March 15; Tom Mitchell, ``Lunch With FT: He Jiahong,'' 
Financial Times, 20 February 15; Elizabeth M. Lynch, ``Translation--
Beijing News Interviews Tian Wenchang on Custody & Education,'' China 
Law & Policy (blog), 25 June 14.
    \9\ See, e.g., ``Xi Makes the Rules,'' Economist, Analects (blog), 
24 October 14.
    \10\ See, e.g., State Council, Measures on Sex Workers' Custody and 
Education [Maiyin piaochang renyuan shourong jiaoyu banfa], issued and 
effective 4 September 93.
    \11\ See, e.g., ``What Is `Shuanggui': Special Organizational and 
Investigative Measures'' [Shenme shi ``shuanggui'': teshu de zuzhi 
cuoshi he diaocha shouduan], China News, reprinted in Sina, 19 October 
03.
    \12\ See, e.g., ``To Date, Qin Yongmin and His Wife Kept Under Soft 
Detention for Over Two Months'' [Qin yongmin fufu bei ruanjin liang ge 
duo yue zhijin], Radio Free Asia, 20 March 15.
    \13\ Peter Larson, ``Laying Down the Law: Jerome Cohen on the Rule 
of Law in China Pt. 2,'' China Focus (blog), 25 April 15.
    \14\ PRC Food Safety Law [Zhonghua renmin gongheguo shipin anquan 
fa], passed 28 February 09, amended 24 April 15, effective 1 October 
15, art. 123; Zhou Dongxu, ``Changes to Food Safety Law Include Tougher 
Punishments,'' Caixin, 4 May 15.
    \15\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, arts. 32-58.
    \16\ See, e.g., Jerome A. Cohen, ``Incommunicado Detention in 
China,'' New York University School of Law, US-Asia Law Institute, 18 
April 12.
    \17\ UN Office of the High Commissioner for Human Rights, ``Fact 
Sheet No. 26, The Working Group on Arbitrary Detention,'' May 2000, 
sec. IV(C).
    \18\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 9(1). See also CECC, 2014 Annual Report, 9 
October 14, 207-08, endnotes 14, 15.
    \19\ ``Over One Hundred Lawyers and Citizens Urge National People's 
Congress To Ratify International Conventions on Human Rights and Enact 
Press Laws'' [Yu bai lushi ji gongmin yu renda pizhun guoji gongyue 
baozhang renquan ji banbu xinwen fa], Radio Free Asia, 10 March 15.
    \20\ ``China Abolishes Reeducation Through Labor,'' Xinhua, 28 
December 13.
    \21\ CECC, 2014 Annual Report, 9 October 14, 82-84. See also ``Four 
Cities Pilot Reeducation Through Labor System Reform; Unlawful 
Activities in Education and Corrections To Be Replaced'' [Si shi 
shidian laojiao zhidu gaige you weifa xingwei jiaoyu jiaozhi qudai], 
Beijing News, reprinted in Xinhua, 29 August 12.
    \22\ See, e.g., Human Rights Watch, ``World Report 2015: China,'' 
last visited 22 June 15.
    \23\ PRC Mental Health Law [Zhonghua renmin gongheguo jingshen 
weisheng fa], passed 26 October 12, effective 1 May 13.
    \24\ Chinese Human Rights Defenders, ``[CHRB] Forced Psychiatric 
Detention Persists 2 Years After China Enacted Mental Health Law,'' 8 
May 15. See also Chinese Human Rights Defenders, `` `The Darkest 
Corners': Abuses of Involuntary Psychiatric Commitment in China,'' 6 
August 12.
    \25\ Civil Rights & Livelihood Watch, ``2014 Year-End Report on 
Mental Health and Human Rights (Forced Psychiatric Commitment) in 
China'' [2014 nian zhongguo jingshen jiankang yu renquan (bei 
jingshenbing) nianzhong baogao], 14 January 15; ``Forced `Psychiatric 
Care' for China's Government Critics Now Endemic: Report,'' Radio Free 
Asia, 15 January 15.
    \26\ See, e.g., Dan Levin, ``Despite a Crackdown, Use of Illegal 
Drugs in China Continues Unabated,'' New York Times, 25 January 15.
    \27\ Beijing Aizhixing Institute, ``List of Issues on the Rights of 
Drug Addicts in China Submitted to UN Committee against Torture by 
Beijing Aizhixing Institute, on Feb 8th, 2015,'' 8 February 15, 1-2.
    \28\ State Council, Measures on Sex Workers' Custody and Education 
[Maiyin piaochang renyuan shourong jiaoyu banfa], issued and effective 
4 September 93, art. 9; Asia Catalyst, `` `Custody and Education': 
Arbitrary Detention for Female Sex Workers in China,'' December 2013.
    \29\ Wang Xing, ``Ministry of Public Security Answers Information 
Request; Entire Country Presently Has 116 Custody and Education 
Centers'' [Gong'anbu dafu xinxi gongkai shenqing quanguo xian you 116 
ge shourong jiaoyu suo], Southern Metropolitan Daily, 1 August 14.
    \30\ Asia Catalyst, `` `Custody and Education': Arbitrary Detention 
for Female Sex Workers in China,'' December 2013, 14, 18-20; Lu Yijie 
et al., ``Three Questions on the Measures on Sex Workers' Custody and 
Education'' [San wen maiyin piaochang renyuan shourong jiaoyu banfa], 
China Youth Daily, 6 June 14.
    \31\ Dui Hua Foundation, ``Custody and Education Worse Than 
Reeducation Through Labor? '' Dui Hua Reference Materials, 26 December 
13.
    \32\ ``UNAIDS Guidance Note on HIV and Sex Work,'' UNAIDS/09.09E/
JC1696E, updated April 2012, 10-11.
    \33\ Asia Catalyst, `` `Custody and Education': Arbitrary Detention 
for Female Sex Workers in China,'' December 2013, 8.
    \34\ Wang Gangqiao, ``Robust Constitutional Supervisory System 
Makes Custody and Education Abolition a Real Question'' [Jianquan 
xianfa jiandu zhidu xi shourong jiaoyu cunfei zhen wenti], Yangcheng 
Evening News, reprinted in People's Daily, 2 December 14; Wang Ruiqi, 
``Actor Huang Haibo Released After Six-Month Detention,'' Sina English, 
1 December 14; Li Yunfang, ``Lawyers Propose Repeal of Measures on Sex 
Workers' Custody and Education'' [Lushi jianyi chexiao maiyin piaochang 
renyuan shourong jiaoyu banfa], 17 April 14.
    \35\ ``Committee Member Zhang Kangkang Calls for Abolition of the 
Custody and Education System'' [Zhang kangkang weiyuan huyu feizhi 
shourong jiaoyu zhidu], Caixin, 4 March 15.
    \36\ Evan Osnos, ``Born Red,'' New Yorker, 6 April 15.
    \37\ ``Policing the Party,'' Economist, 1 September 12.
    \38\ Tania Branigan, ``Bo Xilai's Fate Lies With the Communist 
Party,'' Guardian, 10 May 12.
    \39\ Jerome A. Cohen, ``Incommunicado Detention in China,'' New 
York University School of Law, US-Asia Law Institute, 18 April 12.
    \40\ ``What is `Shuanggui': Special Organizational and 
Investigative Measures'' [Shenme shi ``shuanggui'': teshu de zuzhi 
cuoshi he diaocha shouduan], China News, reprinted in Sina, 19 October 
03; Flora Sapio, ``Shuanggui and Extralegal Detention in China,'' China 
Information, Vol. 22, No. 1, March 2008.
    \41\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 9; 
International Covenant on Civil and Political Rights, adopted by 
General Assembly resolution 2200A (XXI) of 16 December 66, entry into 
force 23 March 76, art. 9.
    \42\ PRC Constitution, issued 4 December 82, amended 12 April 88, 
29 March 93, 15 March 99, 14 March 04, art. 37; PRC Legislation Law 
[Zhonghua renmin gongheguo lifa fa], passed 15 March 00, effective 1 
July 00, arts. 8, 9. See also Donald Clarke, ``Discipline Inspection 
Commissions and Shuanggui Detention,'' Chinese Law Prof Blog, 5 July 
14; Eva Pils, China's Human Rights Lawyers: Advocacy and Resistance 
(New York: Routledge, 2015), 80; Flora Sapio, ``Shuanggui and 
Extralegal Detention in China,'' China Information, Vol. 22, No. 1, 
March 2008, 23-24.
    \43\ Lucy Hornby, ``China Eyes Rule-Based System but Flexes 
Extrajudicial Muscles,'' Financial Times, 16 October 14. See also Fu 
Hualing, ``Wielding the Sword: President Xi's New Anti-Corruption 
Campaign,'' Social Science Research Network, 7 September 14, revised 8 
July 15, last visited 29 July 15, 148.
    \44\ ``Pu's Video Workshop Exposed Party Abuses,'' Pu Zhiqiang, The 
Lawyer (blog), 22 August 14; Ye Zhusheng, `` `Shuanggui': Between 
Discipline and the Law'' [Jilu yu falu zhi jian de ``shuanggui''], 
South Reviews, reprinted in Boxun, 13 June 13. For an English 
translation of Ye's article, see Dui Hua Foundation, ``Corruption, 
Shuanggui and Rule of Law,'' Dui Hua Human Rights Journal, 27 June 13.
    \45\ Luo Guoping, ``Committee Member Li Wai: `Shuanggui' Must Be 
Clearly Stipulated by Law'' [Li wai weiyuan: ``shuanggui'' ying minque 
rufa], Caixin, 9 March 15.
    \46\ See, e.g., Tania Branigan, ``Politburo, Army, Casinos: China's 
Corruption Crackdown Spreads,'' Guardian, 14 February 15.
    \47\ ``Most Complete `Hundred Tigers Map': Guide to High Officials 
Sacked Since Start of 18th National Congress'' [Zui wanzheng ``bai hu 
tu'': shibada yilai luoma gaoguan yilan], China Economic Net, 27 April 
15; Joseph Fewsmith, ``China's Political Ecology and the Fight Against 
Corruption,'' China Leadership Monitor, Hoover Institution, Stanford 
University, No. 46 (Winter 2015), 19 March 15, 1-2; Human Rights Watch, 
``Political Repression at a High Mark,'' 29 January 15.
    \48\ ``Zhou Yongkang Sentenced to Life in Prison, No Limits for 
Anti-Corruption,'' Xinhua, 11 June 15; Jerome A. Cohen, ``Zhou Yongkang 
Case Shows China's Rule of Law Still Good Only in Theory,'' South China 
Morning Post, 18 August 14.
    \49\ ``Zhou Yongkang Sentenced to Life in First Instance Trial'' 
[Zhou yongkang yishen bei panchu wuqi tuxing], Caixin, 11 June 15.
    \50\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 183.
    \51\ ``Zhou Yongkang Sentenced to Life in Prison, No Limits for 
Anti-Corruption,'' Xinhua, 11 June 15. See also Jerome A. Cohen, ``Why 
Was Zhou Yongkang Denied a Public Trial Like Bo Xilai's? '' South China 
Morning Post, 7 July 15; ``Can Zhou Yongkang and Others Have Open 
Trials? Zhou Qiang: Open in Accordance With the Law,'' [Zhou yongkang 
deng shibushi dou hui gongkai shenpan? zhou qiang: yifa gongkai], CCTV, 
reprinted in Legal Daily, 16 March 15.
    \52\ David Wertime, ``Inside China's Blackest Box,'' Foreign 
Policy, TeaLeafNation (blog), 2 July 14.
    \53\ ``Bengbu, Anhui, Disciplinary Cadre Dies During Discussion, 
Family Members Say Deceased Had Four Broken Ribs'' [Anhui bengbu jijian 
ganbu tanhua qijian siwang, jiashu cheng sizhe si gen leigu duanlie], 
The Paper, 16 January 15; ``Pu's Video Workshop Exposed Party Abuses,'' 
Pu Zhiqiang, The Lawyer (blog), 22 August 14; ``Lawyers Call for Probe 
Into Torture by China's Party Investigators,'' Radio Free Asia, 15 
August 14. See also Jamil Anderlini, ``China Launches Survey of 
Suicides Among Communist Party Officials,'' Financial Times, 29 January 
15. In early 2015, the Chinese Communist Party reportedly launched a 
survey concerning suicides among officials.
    \54\ Ian Johnson, ``China's Unstoppable Lawyers: An Interview With 
Teng Biao,'' New York Review of Books (blog), 19 October 14. See also 
Teng Biao, ``What Is a `Legal Education Center' in China,'' China 
Change, 3 April 14.
    \55\ See, e.g., ``Chinese Rights Lawyer Marks Ten Months Under 
House Arrest,'' Radio Free Asia, 6 May 15; ``Authorities Suppress 
Commemoration of Sensitive Figures on Eve of Qingming'' [Qingming 
qianxi dangju daya jidian min'gan renshi], Radio Free Asia, 3 April 15; 
Rights Defense Network, ``Democracy Rights Defender and Professor Sun 
Wenguang Again Held in Soft Detention During Qingming'' [Minzhu weiquan 
renshi sun wenguang jiaoshou qingming zai zao ruanjin], 5 April 15; 
Rights Defense Network, ``Petitioner Yue Ailing From Zibo, Shandong, 
Under Soft Detention for 10 Days for Going to Beijing To Petition'' 
[Shandong zibo fangmin yue ailing yin fu jing shangfang bei ruanjin 
yijing 10 tian], 18 January 15; Rights Defense Network, ``Famous Artist 
Mr. Li Xianting Under Soft Detention, House Under Guard'' [Zhuming 
yishujia li xianting xiansheng bei ruanjin jia bei shanggang], 2 
November 14; Ren Zhongyuan and Yang Baolu, ``Detective Work by Group in 
`Black Jail' Claim Leads to Trial,'' Caixin, 23 April 14.
    \56\ ``During 26th Anniversary of June 4th, Many Human Rights and 
Democracy Public Figures in Guizhou and Zhejiang Placed Under Soft 
Detention or Forced To Travel'' [Liu si 26 zhounian qijian guizhou 
zhejiang duo ming renquan ji minzhu renshi zao ruanjin huo bei luyou], 
Radio Free Asia, 8 June 15; ``To Date, Qin Yongmin and His Wife Under 
Soft Detention for Over Two Months'' [Qin yongmin fufu bei ruanjin 
liang ge duo yue zhijin], Radio Free Asia, 20 March 15. PRC Criminal 
Procedure Law [Zhonghua renmin gongheguo xingshi susong fa], passed 1 
July 79, amended 17 March 96, 14 March 12, effective 1 January 13, 
arts. 72-77. Home confinement without legal basis and ``soft 
detention'' (ruanjin) should be distinguished from ``residential 
surveillance'' (jianshi juzhu), which is provided for in the PRC 
Criminal Procedure Law.
    \57\ Chinese Human Rights Defenders, ``We Can Beat You to Death 
With Impunity,'' October 2014; ``Shanghai Petitioner Ma Yalian Put in 
`Black Jail'; Following Refusal of Required Medical Attention Begins 
Hunger Strike'' [Shanghai fangmin ma yalian bei guan ``hei jianyu'' 
yaoqiu kanbing bei ju bei po jueshi kangyi], Radio Free Asia, 12 March 
15. See also Sophie Richardson, Human Rights Watch, ``Dispatches: 
Casting a Light Into China's Black Jails,'' 28 March 14.
    \58\ For more information on Gao Zhisheng, see the Commission's 
Political Prisoner Database record 2005-00291.
    \59\ ``Chinese Rights Lawyer Marks Ten Months Under House Arrest,'' 
Radio Free Asia, 6 May 15. See also Sophie Richardson, Human Rights 
Watch, ``Dispatches: Making 2015 `Unforgettable' in China,'' 7 January 
15; Jared Genser, Freedom Now, ``A Major Setback to the Rule of Law in 
China,'' The Diplomat, 15 September 14; Teng Biao, ``A Chinese 
Activist: Out of Prison but Not Free,'' Washington Post, 7 September 
14.
    \60\ ``Chinese Rights Lawyer's Phone Calls Limited Under House 
Arrest,'' Radio Free Asia, 8 January 15. Dui Hua Foundation, ``Gao 
Zhisheng Begins Sentence of Deprivation of Political Rights,'' Dui Hua 
Human Rights Journal, 7 August 14; ``Geng He: Gao Zhisheng Is Starting 
To Regain His Health and Is Retaining His Self-Confidence and 
Optimism'' [Geng he: gao zhisheng shenti kaishi huifu reng baochi zixin 
leguan], Radio Free Asia, 9 February 15; Austin Ramzy, ``Family of 
Dissident Lawyer Fears for His Health After Prison,'' New York Times, 
Sinosphere (blog), 14 August 14. After his release from prison, Gao 
began serving a ``supplemental sentence of one year of deprivation of 
political rights'' and reportedly suffered from serious medical 
ailments.
    \61\ National People's Congress Standing Committee, PRC Criminal 
Law Amendment (Nine) [Zhonghua renmin gongheguo xingfa xiuzheng'an 
(jiu)], issued 29 August 15, effective 1 November 15. For previous 
drafts, see National People's Congress Standing Committee, PRC Criminal 
Law Amendment (Nine) (Draft) (Second Reading) [Zhonghua renmin 
gongheguo xingfa xiuzheng'an (jiu) (cao'an) (erci shenyi gao)], issued 
6 July 15; National People's Congress Standing Committee, PRC Criminal 
Law Amendment (Nine) (Draft) [Zhonghua renmin gongheguo xingfa 
xiuzheng'an (jiu) (cao'an)], issued 3 November 14. See also National 
People's Congress Law Committee, ``Deliberative Conclusions Report 
Regarding `PRC Criminal Law Amendment (Nine) (Draft)' '' [Guanyu 
``zhonghua renmin gongheguo xingfa xiuzheng'an (jiu) (cao'an)'' shenyi 
jieguo baogao], 24 August 15.
    \62\ National People's Congress Standing Committee, PRC Criminal 
Law Amendment (Nine) [Zhonghua renmin gongheguo xingfa xiuzheng'an 
(jiu)], issued 29 August 15, effective 1 November 15; Zhang Yi, ``Fewer 
Crimes To Be Subject to Death Penalty,'' China Daily, 31 August 15. See 
also Xie Wenying, ``Corruption Is Not Simply a Matter of Sentencing by 
the Numbers'' [Tanwu shouhui buneng danchun yi shu'e liangxing], 
Procuratorial Daily, 3 November 14.
    \63\ National People's Congress Standing Committee, PRC Criminal 
Law Amendment (Nine) [Zhonghua renmin gongheguo xingfa xiuzheng'an 
(jiu)], issued 29 August 15, effective 1 November 15. See also National 
People's Congress, ``Explanation of `PRC Criminal Law Amendment (Nine) 
(Draft)' '' [Guanyu ``zhonghua renmin gongheguo xingfa xiuzheng'an 
(jiu) (cao'an)'' de shuoming], 3 November 14.
    \64\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 291.
    \65\ National People's Congress Standing Committee, PRC Criminal 
Law Amendment (Nine) [Zhonghua renmin gongheguo xingfa xiuzheng'an 
(jiu)], issued 29 August 15, effective 1 November 15, item 32.
    \66\ Ibid.
    \67\ Ibid., item 36.
    \68\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 398.
    \69\ Verna Yu, ``Chinese Journalist Gao Yu: An Egg Breaking Against 
the Communist Party's Wall,'' South China Morning Post, 16 May 15. For 
more information on Gao Yu, see the Commission's Political Prisoner 
Database record 2004-05037.
    \70\ Office of Press Relations, U.S. Department of State, ``Daily 
Press Briefing--April 17, 2015,'' 17 April 15; ``U.S. State Department 
Publicly Calls on China To Release Reporter Gao Yu'' [Meiguo guowuyuan 
gaodiao huyu zhongguo shifang jizhe gao yu], BBC, 28 April 15; European 
Union External Action, ``Statement by the Spokesperson on the 
Sentencing of Veteran Chinese Journalist Gao Yu,'' 17 April 15.
    \71\ Human Rights in China, ``Heavy Sentence for Gao Yu Exposes 
Hollowness of `Rule by Law' in China,'' 17 April 15; Maya Wang, Human 
Rights Watch, ``Dispatches: Silencing a Veteran Chinese Journalist,'' 
15 April 15.
    \72\ State Council Information Office, ``White Paper on Progress in 
China's Human Rights in 2014,'' reprinted in Xinhua, 8 June 15, sec. 2. 
For information on the October 28, 2013, attack in Tiananmen Square, 
Beijing municipality, see Rebecca Valli, ``3 Sentenced to Death in 
China for Organizing Terror Plot,'' Voice of America, 16 June 14; 
Barbara Demick, ``Tiananmen Square Attack Sows Terror in Spiritual 
Heart of China,'' Los Angeles Times, 28 October 13. For information on 
the March 2014 attack in Kunming municipality, Yunnan province, see 
Shannon Tiezzi, ``China Executes 3 for Deadly Kunming Attack,'' The 
Diplomat, 24 March 15.
    \73\ ``Counterterrorism Law Draft Enters Second Reading, Further 
Improving Definition of Terrorism'' [Fan kongbu zhuyi fa cao'an jinru 
ershen jinyibu wanshan kongbu zhuyi deng dingyi], China News Net, 25 
February 15; Shannon Tiezzi, ``US Claims Victory in Debate Over Chinese 
Terror Law,'' The Diplomat, 17 March 15.
    \74\ National People's Congress Standing Committee, PRC Criminal 
Law Amendment (Nine) [Zhonghua renmin gongheguo xingfa xiuzheng'an 
(jiu)], issued 29 August 15, effective 1 November 15, item 7.
    \75\ Supreme People's Court, ``Supreme People's Court Work Report'' 
[Zuigao renmin fayuan gongzuo baogao], 12 March 15, 2; ``Cases of 
Terrorism, Separatism Up 15%: Chief Justice,'' China Daily, 12 March 
15. See also Dui Hua Foundation, ``Xinjiang State Security Trials Flat, 
Criminal Trials Soar in 2014,'' Dui Hua Human Rights Journal, 10 March 
15.
    \76\ Amnesty International, ``China: Draconian Anti-Terror Law an 
Assault on Human Rights,'' 4 March 15; Shuan Sim, ``China Terrorism 
Crackdown: Rising Cases in 2014 Concern Rights Groups,'' International 
Business Times, 12 March 15.
    \77\ Human Rights Watch, ``China: Draft Counterterrorism Law a 
Recipe for Abuses,'' 20 January 15.
    \78\ Xu Qianchuan, ``The Pockets of Criminal Law,'' Caijing, 21 
January 14.
    \79\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 290.
    \80\ Zhao Bingzhi, ``Zhao Bingzhi: Be Aware That Picking Quarrels 
and Provoking Trouble Has Become a New `Pocket Crime,' '' [Zhao 
bingzhi: jingti xunxin zishi zui chengwei xin ``koudai zui''], Wo 
Bianhu, 8 May 15; Alinda Vermeer, ``Renowned Chinese Human Rights 
Lawyer Still Detained After 10 Months,'' Global Voices Online, 27 
February 15.
    \81\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 249.
    \82\ Ibid., art. 293.
    \83\ Chris Buckley, ``Human Rights Lawyer Pu Zhiqiang Is Charged'' 
[Renquan lushi pu zhiqiang bei tiqi gongsu], New York Times, 15 May 15; 
Zhang Qianfan, ``Conviction for One's Words Is a Legal Travesty'' [Yi 
yan dingzui shi fazhi daji], Financial Times, 22 May 15. See also Perry 
Link, ``China: Inventing a Crime,'' New York Review of Books (blog), 9 
February 15. For more information on Pu Zhiqiang, see the Commission's 
Political Prisoner Database record 2014-00174.
    \84\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 293.
    \85\ Interpretation of the Supreme People's Court and the Supreme 
People's Procuratorate on Several Issues Concerning the Application of 
Law in the Handling of Criminal Cases of Picking Quarrels and Provoking 
Trouble [Zuigao renmin fayuan, zuigao renmin jiachayuan guanyu banli 
xunxin zishi xingshi anjian shiyong falu ruogan wenti de jieshi], 15 
July 13; Jeremy Daum, ``Quick Note on `Picking Quarrels,' '' China Law 
Translate (blog), 6 May 14. See also Edward Wong, ``China Uses `Picking 
Quarrels' Charge To Cast a Wider Net Online,'' New York Times, 26 July 
15.
    \86\ Donald Clarke, `` `Picking Quarrels and Stirring Up Trouble' 
in Chinese Law,'' Chinese Law Prof Blog, 1 July 14. See also Edward 
Wong, ``China Uses `Picking Quarrels' Charge To Cast a Wider Net 
Online,'' New York Times, 26 July 15.
    \87\ Luo Jieqi, ``Prominent Lawyer Pu Zhiqiang Arrested'' [Zhiming 
lushi pu zhiqiang zao pibu], Caixin, 13 June 14; ``On the Anniversary 
of Pu Zhiqiang's Detention; Beijing Prosecutors Conduct Three 
Supplemental Investigations'' [Pu zhiqiang shouya zhounian beijing 
jianfang sanling buchong zhencha], BBC, 5 May 15; Celia Hatton, ``The 
Case Against Chinese Human Rights Lawyer Pu Zhiqiang,'' BBC, China 
Blog, 28 January 15; ``Case of Human Rights Lawyer Pu Zhiqiang Enters 
Critical Prosecutorial Investigative Period'' [Renquan lushi pu 
zhiqiang an jinru shencha qisu guanjian qi], Voice of America, 7 May 
15. See also Bernhard Zand, ``Interview with Chinese Artist Ai Weiwei: 
The State is Scared,'' Spiegel Online, 20 May 15. Artist Ai Weiwei 
commented on the broader implications of Pu's case that, ``There is not 
a shred of evidence, of course. No one knows what is going to happen to 
him. But his case will show where China will move in the coming years. 
Will he get a fair trial? Will there be rule of law in China? Will we 
ever respect each other's free speech and opinion? ''
    \88\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 105.
    \89\ Julie Makinen, ``In China, Human Rights Lawyer Leaves Prison, 
but Has No Freedom,'' Los Angeles Times, 12 September 14.
    \90\ Beijing Mo Shaoping Law Firm, ``Concerning Liu Xiaobo's Appeal 
Against the Charge of Inciting Subversion of State Power,'' translated 
by Human Rights in China, 28 January 10. For more information on Liu 
Xiaobo, see the Commission's Political Prisoner Database record 2004-
03114.
    \91\ ``Chinese Activist Sentenced to Five Years in Prison for 
Inciting Subversion'' [Zhongguo huodong renshi yin shandong dianfu zui 
bei pan 5 nian jianjin], BBC, 11 May 15. For more information on Liu 
Jiacai, see the Commission's Political Prisoner Database record 2013-
00281.
    \92\ China Digital Times, ``NGOs' `Illegal Business Operation' 
[Updated],'' 14 May 15.
    \93\ For more information on Guo Yushan, see the Commission's 
Political Prisoner Database record 2014-00370.
    \94\ Edward Wong, ``China Arrests Activist Amid a Clampdown,'' New 
York Times, 6 January 15; Gianluca Mezzofiore, ``Chinese Scholar Who 
Helped Blind Dissident Chen Guangcheng Flee Is Arrested,'' 
International Business Times, 6 January 15; Zeng Jinyan, ``Guo Yushan 
and the Predicament of NGOs in China,'' Probe International, 21 May 15.
    \95\ Beijing Municipality Public Security Bureau, ``Opinion 
Recommending Prosecution for Guo Yushan'' [Guo yushan qisu yijianshu], 
2 April 15, reprinted in Boxun, 24 April 15.
    \96\ ``China Releases Two NGO Activists `On Bail' Ahead of 
President's US Trip,'' Radio Free Asia, 15 September 15.
    \97\ For more information on Shen Yongping, see the Commission's 
Political Prisoner Database record 2014-00389.
    \98\ Edward Wong, ``Prison Sentence for Maker of Documentary on 
Chinese Constitutional Rule,'' New York Times, Sinosphere (blog), 30 
December 14; Clifford Coonan, ``Chinese Filmmaker Jailed After 
Documentary About Constitution,'' Hollywood Reporter, 1 January 15.
    \99\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13.
    \100\ Sun Qian, ``Reflections on the Implementation of the Revised 
Criminal Procedure Law'' [Guanyu xiugai hou xingshi susong fa zhixing 
qingkuang de ruogan sikao], Procuratorial Daily, 9 April 15.
    \101\ See, e.g., Maya Wang, ``China's Chilling Message to Women,'' 
CNN, 7 April 15; ``China's Dissidents Feel the `Chilling Effect' as 
Party's Muzzling Tactics Prove Effective,'' Agence France-Presse, 
reprinted in South China Morning Post, 10 July 14.
    \102\ Chinese Human Rights Defenders, ``[CHRB] 5 Women's & LGBT 
Rights Activists Detained in Escalating Clampdown on NGOs (3/6-12/
15),'' 12 March 15. For more information on the five women's rights 
advocates and their cases, see the following records in the 
Commission's Political Prisoner Database: 2015-00114 on Wei Tingting, 
2015-00115 on Wang Man, 2015-00116 on Li Tingting, 2015-00117 on Wu 
Rongrong, and 2015-00118 on Zheng Churan.
    \103\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 293.
    \104\ Ibid., art. 291. See also Elizabeth M. Lynch, ``To Arrest or 
Not To Arrest--Prosecutors Have to Today To Determine Fate of Five 
Female Activists,'' China Law & Policy (blog), 13 April 15.
    \105\ Edward Wong, ``China Releases 5 Women's Rights Activists 
Detained for Weeks,'' New York Times, 13 April 15; Zhao Sile, ``The 
Inspirational Backstory of China's `Feminist Five,' '' Foreign Policy, 
17 April 15.
    \106\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, chap. 4.
    \107\ Human Rights in China, ``HRIC Law Note: Five Detained Women 
Released on `Guarantee Pending Further Investigation,' '' 13 April 15.
    \108\ John Ruwitch and Sui-Lee Wee, ``Chinese Woman Activist Says 
Interrogated a Week After Release,'' Reuters, 25 April 15.
    \109\ Lu Jun, Yirenping, ``Five Women's Rights Sisters Under Close 
Police Surveillance, After Visit, Li Tingting's Close Friend Not in 
Contact'' [Nuquan wu jiemei shoudao jingfang yanmi jiankong, li 
tingting miyou tanwang hou shilian], Yirenpingnews Google Group, 15 
April 15.
    \110\ Xiao Meili, ``China's Feminist Awakening,'' New York Times, 
13 May 15.
    \111\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 37.
    \112\ Supreme People's Procuratorate, Supreme People's 
Procuratorate Regulations on Protecting Lawyers' Practice Rights 
According to Law [Zuigao renmin jiancha yuan guanyu yifa baozhang lushi 
zhiye quanli de guiding], issued 23 December 14, arts. 2, 5; Chen Kai, 
``SPP Introduces New Regulations to Protect Lawyers' Practices, 
Resolving `Three Difficulties' and Other Problems'' [Zuigao jian chutai 
baozhang lushi zhiye xingui jiejue ``sannan'' deng wenti], China 
Internet Information Center, 15 February 15; Zhou Bin, ``Lawyers' 
Meetings at Detention Centers Usually Arranged Within Half an Hour'' 
[Lushi kanshousuo huijian yiban ban xiaoshi nei anpai], Legal Daily, 17 
August 15; Xing Shiwei, ``Five Ministries Will Jointly Issue Document 
Protecting Lawyers' Practice Rights'' [Wu bumen jiang lian fawen 
baozhang lushi zhiye quanli], Beijing News, 21 August 15. See, e.g., 
``Ganyu Procurator Notifies Detention Centers To Correct Violations; 
Protect the Right To Meet With Lawyers'' [Ganyu jiancha tongzhi 
kanshousuo jiuzheng weifa baozhang lushi huijian quan], Jiangsu 
Province People's Procuratorate Net, 14 April 15.
    \113\ Luo Sha and Chen Fei, ``SPP: Strict Standards in Major 
Bribery Cases for Lawyers' Meetings, Protect Lawyers' Rights and 
Interests'' [Zuigao jian: yan'ge guifan zhongda huilu anjian lushi 
huijian baozhang lushi quanyi], Xinhua, 24 March 15.
    \114\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 37; Human Rights Watch, ``China: End 
Nationwide Crackdown on Activists,'' 29 June 14.
    \115\ Dui Hua Foundation, ``Despite Legal Reform: SPC Still Blocks 
Lawyer-Client Access,'' Dui Hua Human Rights Journal, 9 June 15; Wang 
Feng, ``One-and-a-Half Years After Implementation of the New Criminal 
Procedure Law, Difficulties Meeting Clients and Having Witnesses Appear 
in Court Are Still Prominent'' [Xin xing su fa shishi yi nian ban hui 
jian nan he zhengren chuting nan wenti rengran tuchu], 21st Century 
Business Herald, 15 September 14; Shangquan Law Firm, `` `New Three 
Difficulties' Appear for Criminal Defense'' [Xingshi bianhu chuxian 
``xin san nan''], Shangquan Criminal Defense Network, 5 November 14.
    \116\ Andrew Jacobs, ``Conviction Rates Count More in Chinese 
Justice Than Innocence,'' New York Times, 12 May 15.
    \117\ Zhang Youyi, ``High Risk and Low Quality, Revealing Criminal 
Defense Lawyers' Six Major Difficulties'' [Gao fengxian di zhiliang 
jiemi xingshi bianhu lushi liu da nanti], Legal Daily, reprinted in 
Nanjing Lawyers Net, 7 January 08; Jia Jinfeng, ``Investigation of 
Lawyer Representation Rates in Criminal Cases'' [Xingshi susong anjian 
de lushi bianhu lu qingkuang diaocha], Lunwen Wang, 23 December 14; US-
Asia Law Institute, New York University School of Law, ``Professional 
Responsibility for Chinese Criminal Defense Lawyers--A Potential Source 
of Protected Space,'' 21 October 14; ``Mu Ping: In Twenty Thousand 
Criminal Cases, Lawyers Represented [Defendants] in Only 2.5 Percent of 
Cases'' [Mu ping: liangwan xingsu'an lushi jin daili 2.5%], Beijing 
News, 9 March 12; Zhu Lei, ``CPPCC Member Yu Ning: Proposal To Increase 
Criminal Case Lawyer Participation Rate'' [Yu ning weiyuan: jianyi 
tigao xing'an lushi canyu lu], Legal Daily, 12 March 12.
    \118\ See, e.g., Chinese Human Rights Defenders, ``Silencing the 
Messenger: 2014 Annual Report on the Situation of Human Rights 
Defenders in China,'' March 2015, 20-23; ``China Human Rights Lawyers 
Concern Group Calls for Attention to Detained Mainland Human Rights 
Lawyers'' [Zhongguo weiquan lushi guanzhu zu huyu guanzhu neidi bei 
jiya weiquan lushi], Radio Free Asia, 17 February 15; Amnesty 
International, ``China: Drop Politically Motivated Charges Against 
Prominent Human Rights Lawyer,'' 15 May 15. For background on the long-
term harassment of Chinese lawyers, see, e.g., Human Rights Watch, 
``China: Restrictions on Lawyers Fuel Unrest,'' 30 April 08.
    \119\ Human Rights Watch, ``China: Protect Lawyers From Beatings 
and Harassment,'' 25 June 15; Human Rights Watch, ``Tiger Chairs and 
Cell Bosses: Police Torture of Criminal Suspects in China,'' May 2015, 
60, 113; Chen Xiao and Zhu Yuchen, ``The Pain of the Criminal Law's 
Article 306'' [Xingfa di 306 tiao zhi tong], Legal Weekend, reprinted 
in Legal Daily, 2 July 11; `` `Big Stick 306' and China's Contempt for 
the Law,'' New York Times, 5 May 11. The 2010 conviction by a Chongqing 
municipality court of lawyer Li Zhuang, for example, received national 
and international attention as an abusive use of this provision. See 
Wang Huazhong, ``Lawyer for Gang Boss Suspect Gets Prison Sentence,'' 
China Daily, 9 January 10; Donald Clarke, ``Li Zhuang's Conviction and 
the Problem of Witnesses,'' Chinese Law Prof Blog, 8 January 10, 
updated 9 January 10; Vincent R. Johnson and Stephen C. Loomis, ``The 
Rule of Law in China and the Prosecution of Li Zhuang,'' Chinese 
Journal of Comparative Law, Vol. 1, No. 1, 1 March 13, 66-83.
    \120\ National People's Congress Standing Committee, PRC Criminal 
Law Amendment (Nine) [Zhonghua renmin gongheguo xingfa xiuzheng'an 
(jiu)], issued 29 August 15, effective 1 November 15, item 37. See also 
National People's Congress Legal Committee, ``Deliberative Conclusions 
Report Regarding `PRC Criminal Law Amendment (Nine) (Draft)' '' [Guanyu 
``zhonghua renmin gongheguo xingfa xiuzheng'an (jiu) (cao'an)'' shenyi 
jieguo baogao], issued 24 August 15, item 6.
    \121\ ``Legal Opinion on Revisions to Article 35 in `Criminal Law 
Amendment (9)' Draft,'' [Guanyu ``xingfa xiuzheng'an (9)'' cao'an di 35 
tiao xiugai neirong de falu yijian], reprinted in Boxun, 22 November 
14; Joshua Rosenzweig, ``Chinese Lawyers to Chinese Lawmakers: Let Us 
Defend Our Clients,'' Asia Society, ChinaFile (blog), 15 January 15; 
Frances Eve, ``The Plight of China's Rights Lawyers,'' Asia Society, 
ChinaFile (blog), 16 January 15.
    \122\ ``Over 200 Chinese Lawyers Jointly Protest Lawyer's Detention 
in Court'' [Zhongguo yu 200 ming lushi lianshu kangyi lushi ting shang 
bei zhua], BBC, 12 December 14.
    \123\ ``260 China Rights Lawyers Protest Detention of Fellow 
Lawyer,'' Jurist, 14 December 14. Earlier in 2014, the Wuhan Municipal 
Lawyers Association delayed renewing Zhang's lawyer's license 
reportedly in connection with his representation of Falun Gong 
practitioners. See ``Over a Hundred Lawyers `Fast' in Support of Zhang 
Keke'' [Bai duo lushi ``jinshi'' shengyuan zhang keke], Radio Free 
Asia, 11 June 14.
    \124\ Leo Timm and Frank Fang, ``Chinese Judge on Shackles: `Who 
Cares If It's Illegal? ' '' Epoch Times, 28 April 15; Tian Jing, 
``Jiangsu Court Violates the Law, 14 Lawyers Jointly Promote Justice 
for Colleague'' [Jiangsu fayuan weifa 14 lushi lianhe wei tonghang 
shenzhang zhengyi], New Tang Dynasty Television, 5 May 15.
    \125\ ``Four Lawyers Beaten at Court in Hengyang, Hunan, Before 
Defending Case'' [4 ming lushi zai hunan hengyang chuting bianhu qian 
zao ren ouda], BBC, 21 April 15.
    \126\ ``Four Lawyers Outside Hunan Court Beaten, 400 Lawyers 
Jointly Call for a Thorough Investigation'' [Si lushi hunan fayuan wai 
zao ou 400 lushi lianming cu checha], Boxun, 23 April 15.
    \127\ Human Rights Watch, ``Tiger Chairs and Cell Bosses: Police 
Torture of Criminal Suspects in China,'' May 2015; Ira Belkin, 
``China's Tortuous Path Toward Ending Torture in Criminal 
Investigations,'' Columbia Journal of Asian Law, Vol. 24, 2011, 273.
    \128\ See, e.g., Chinese Communist Party Central Committee, 
Decision on Certain Major Issues Regarding Comprehensively Deepening 
Reforms [Zhonggong zhongyang guanyu quanmian shenhua gaige ruogan 
zhongda wenti de jueding], reprinted in Xinhua, 15 November 13, sec. 
9(34); Yue Deliang, ``Zhejiang Provincial People's Congress Standing 
Committee Special Supervision of Confessions Extracted Through Torture 
and Other Problems'' [Zhejiang sheng renda changweihui zhuanxiang 
jiandu xingxun bigong deng wenti], 6 April 14; Chen Hongyang, ``To 
Prevent Torture Focus on Excluding Illegal Evidence'' [Fang xingxun 
bigong zhong zai feifa zhengju paichu], Guangzhou Daily, 15 May 14; 
Yang Yi, ``Top Chinese Procurator Vows To Better Protect Rights, 
Prevent Wrongful Judgements,'' Xinhua, 10 March 14; Xing Shiwei, 
``Establish `Wrongful Convictions Alert Day' To Reflect Upon Cases of 
Injustice'' [Sheli ``cuo'an jingshi ri'' lai fansi yuanjiacuo'an], 
Beijing News, 19 August 13; Shen Deyong, ``How We Should Be Preventing 
Miscarriages of Justice'' [Women yingdang ruhe fangfan yuanjiacuo'an], 
People's Court Daily, 6 May 13; Melissa Bancroft, ``China Admits 
Torture Behind Recent Wrongful Convictions,'' Jurist, 20 November 06.
    \129\ Chinese Communist Party Central Committee, Decision on 
Several Major Issues in Comprehensively Advancing Governance of the 
Country According to Law [Zhonggong zhongyang guanyu quanmian tuijin 
yifa zhiguo ruogan zhongda wenti de jueding], issued 23 October 14, 
item 4(5).
    \130\ ``Zhou Qiang Gives Supreme People's Court Work Report'' [Zhou 
qiang zuo zuigao renmin fayuan gongzuo baogao], reprinted in Caixin, 12 
March 15; Zhang Jian, ``Zhou Qiang: Regarding the Occurrence of 
Miscarriages of Justice, We Are Deeply Remorseful'' [Zhou qiang: dui 
cuo'an fasheng women shen'gan zize], Beijing Times, 13 March 15.
    \131\ ``SPP Releases 2014 Procuratorial Agencies' Rectifications of 
Miscarriages of Justice in Five Major Cases'' [Zuigao jian fabu 2014 
nian jiancha jiguan jiuzheng yuanjiacuo'an wu da anli], Procuratorial 
Daily, reprinted in Supreme People's Procuratorate, 14 March 15. In 
October 2014, the SPP publicly released updated standards for reviewing 
criminal appeals, the stage at which the higher courts examine cases to 
determine whether mistakes were made earlier in the cases' handling. 
See Supreme People's Procuratorate, ``People's Procuratorate Guidelines 
for Reviews of Criminal Case Appeals'' [Renmin jianchayuan fucha 
xingshi shensu anjian guiding], issued 29 April 14, reprinted in 
Procuratorial Daily, 27 October 14.
    \132\ ``China Launches Special Campaign To Rectify Miscarriages of 
Justice,'' Xinhua, 28 April 15. In August 2015, the Supreme People's 
Procuratorate issued a document listing eight prohibitions during the 
investigation of official crimes that included the prohibition of 
torture and other acts of illegal collection of evidence. See Supreme 
People's Procuratorate, ``Supreme People's Procuratorate Eight 
Prohibitions in the Investigation of Official Crimes'' [Zuigao renmin 
jianchayuan zhiwu fanzui zhencha gongzuo baxiang jinling], issued 4 
August 15, item 7.
    \133\ Xing Shiwei, ``Grueling Interrogations Can Be Considered 
Torture-Extracted Confessions in Disguise'' [Pilao shenxun ni suan 
bianxiang xingxun bigong], Beijing Times, 8 December 14.
    \134\ Jia Shiyu et al., ``Chasing Injustice: 10 Cases, 3 Already 
Disposed Of'' [Yuan'an zhui ze: 10 qi anjian 3 qi yi chuli], Beijing 
News, 18 December 14.
    \135\ ``Courts Find Executed Chinese Teenager `Not Guilty,' '' BBC, 
15 December 14; Shi Wansen and Zhang Chi, ``Inner Mongolia Autonomous 
Region High People's Court Finds Huugjilt Not Guilty'' [Neimenggu 
gaoyuan xuanpan hugejileitu wuzui], Legal Daily, 15 December 14. See 
also ``Second-Instance Trial in Zhao Zhihong Case Upholds Death 
Sentence'' [Zhao zhihong an ershen weichi sixing panjue], Legal Daily, 
4 May 15.
    \136\ Adam Withnall, ``Parents of Teenager `Tortured' and 
Wrongfully Executed for Rape and Murder Watch in Court as Another Man 
is Convicted of the Crime,'' Independent, 9 February 15.
    \137\ Human Rights Watch, ``Tiger Chairs and Cell Bosses: Police 
Torture of Criminal Suspects in China,'' May 2015, 103. Human Rights 
Watch noted that, ``Our search of all Chinese court verdicts published 
on the SPC website during the first four months of 2014 found only one 
case in which police officers were convicted for abusing criminal 
suspects.''
    \138\ Josh Chin, ``China Court Reverses Death Penalty Verdict, 18 
Years Too Late,'' Wall Street Journal, China Real Time Report (blog), 
15 December 14.
    \139\ William Wan, ``In China, A Rare Criminal Case in Which 
Evidence Made a Difference,'' Washington Post, 29 December 14; ``Man 
Compensated for 8-Year Wrongful Custody,'' China Internet Information 
Center, 18 February 15; Zhu Changjun, ``How To Write the Final Result 
of the `Nian Bin Case' '' [``Nian bin an'' de xiaoguo daodi gai ruhe 
shuxie], Beijing News, 2 February 15.
    \140\ Dui Hua Foundation, ``Quest for Retrial: Court Holds Novel 
Hearing on Nie Shubin Case,'' Dui Hua Human Rights Journal, 19 May 15; 
Xu Mingxuan, ``Whether Nie Shubin Case Is Reviewed or Not, All Must 
Oppose `Intervention of Public Opinion' '' [Nie shubin an fucha yu fou, 
dou dei fang ``yulun ganyu''], Beijing News, 5 May 15. See also Zhan 
Shanfeng, ``He Weifang: Why I Grabbed Hold of the Nie Shubin Case'' [He 
weifang: wo weishenme jiuzhu nie shubin an bu fang], China Business 
Morning Post, reprinted in He Weifang's blog, 22 December 14.
    \141\ Josh Chin, ``China's Communist Party Sounds Death Knell for 
Arrest, Conviction Quotas,'' Wall Street Journal, China Real Time 
Report (blog), 22 January 15.
    \142\ Stanley Lubman, ``Why Scrapping Quotas in China's Criminal 
Justice System Won't Be Easy,'' Wall Street Journal, China Real Time 
Report (blog), 30 January 15.
    \143\ Shannon Tiezi, ``In China, A Move Away From Conviction 
Quotas,'' The Diplomat, 23 January 15; Human Rights Watch, ``Tiger 
Chairs and Cell Bosses: Police Torture of Criminal Suspects in China,'' 
May 2015, 33-34.
    \144\ ``Police To Film Interrogations,'' Xinhua, reprinted in China 
Daily, 15 February 15. For a critique of the actual efficacy of 
recording interrogations in curbing extorted confessions see Wu Liwei, 
`` `Preventing and Correcting' Unjust and Wrongful Cases'' 
[Yuanjiacuo'an ``fang yu jiu''], Caixin, 20 April 15.
    \145\ ``China To Hold Police Accountable for Erroneous Cases, for 
Life,'' Xinhua, reprinted in China Daily, 15 February 15.
    \146\ Susan Finder, ``Senior Chinese Judges Speak Out on Preventing 
Injustices in China's Criminal Justice System,'' Supreme People's Court 
Monitor (blog), 17 May 15; `` `Detention Center Law (Draft for 
Examination)' Experts' Seminar Was a Success'' [``Kanshousuo fa 
(songshen gao)'' zhuanjia yantaohui chenggong juban], China Law Society 
Research Office, 1 April 15; Wang Shoufeng et al., ``Ministry of Public 
Security: Humanized Management Ensures Legitimate Rights and Interests 
of Imprisoned'' [Gong'anbu: renxing hua guanli baozhang zai ya renyuan 
hefa quanyi], Public Security Daily, reprinted in Legal Daily, 19 
September 14. See also Gao Yifei, ``Detention Center Legislation From 
the Perspective of Protecting Human Rights'' [Baozhang renquan shiye 
xia de kanshousuo lifa], Procuratorial Daily, reprinted in People's 
Daily, 2 July 15.
    \147\ Xu Xiaotong, ``Can a Detention Center Law End `Death by Blind 
Man's Bluff ' '' [Kanshousuo fa neng fou zhongjie ``duo mao mao si''], 
China Youth Daily, 14 May 14; Dui Hua Foundation, ``Is Detention Center 
Law Enough To Prevent Police Abuse? '' Dui Hua Human Rights Journal, 2 
July 14. Detention centers are currently subject to the 1990 Detention 
Center Regulations. See State Council, PRC Regulations on Detention 
Centers [Zhonghua renmin gongheguo kanshousuo tiaoli], issued and 
effective 17 May 90.
    \148\ Duan Wen, ``Why Do Courts Dare Not Acquit? '' [Fayuan 
weishenme bu gan zuo wuzui panjue?], Phoenix Weekly, reprinted in QQ, 1 
April 15.
    \149\ Human Rights Watch, ``Tiger Chairs and Cell Bosses: Police 
Torture of Criminal Suspects in China,'' May 2015.
    \150\ Zhou Bin, ``48-Item Reform Initiative Is a Strong Guarantee 
of Impartial Justice'' [48 xiang gaige jucuo quanli baozheng gongzheng 
sifa], Legal Daily, 9 April 15; Xing Shiwei, ``Central Judicial Reform 
Office: Strengthening of Trial Stage Central in Preventing Miscarriages 
of Justice'' [Zhongyang si gai ban: qianghua yi shenpan wei zhongxin 
fangzhi yuanjiacuo'an], Beijing News, 31 October 14. See also Tang 
Ya'nan and Ji Tianfu, ``From the Perspective of Making Trials the 
Central, Preventing the Next Miscarriage of Justice'' [Yi shenpan wei 
zhongxin shijiao xia de yuan cuo anjian fangfan], People's Court Daily, 
13 May 15.
    \151\ Zhou Dongxu, ``Legislature Approves Reform of Jury System,'' 
Caixin, 27 April 15.
    \152\ Andrew Jacobs, ``Conviction Rates Count More in Chinese 
Justice Than Innocence,'' New York Times, 14 May 15; Terrence McCoy, 
``China Scored 99.9 Percent Conviction Rate Last Year,'' Washington 
Post, 11 March 14. See also Supreme People's Court, ``2015 Supreme 
People's Court Work Report'' [2015 nian zuigao renminfayuan gongzuo 
baogao], 12 March 15, 4.
    \153\ Supreme People's Court, ``Opinion on Comprehensively 
Deepening Reform of the People's Courts--Fourth Five-Year Outline for 
Reform of the People's Courts (2014-2018)'' [Zuigao renmin fayuan 
guanyu quanmian shenhua renmin fayuan gaige de yijian--renmin fayuan 
disi ge wu nian gaige gangyao (2014-2018)], 4 February 15, para. 13. 
See also Margaret K. Lewis, ``Leniency and Severity in China's Death 
Penalty Debate,'' Columbia Journal of Asian Law, Vol. 24, No. 2, 2011, 
304-32.
    \154\ Li Shouwei, ``Witnesses Appearing in Court: A New Scheme To 
Resolve a Longstanding Problem'' [Zhengren chuting zuozheng: jiejue lao 
wenti de xin fang'an], Chinese Social Sciences Today, 30 April 14; Ma 
Aihu, ``Improving the System of Chinese Witnesses Appearing in Court To 
Testify'' [Zhongguo zhengren chuting zuozheng zhidu de wanshan], 
Lanzhou Lawyer (blog), 3 May 15. See also Human Rights Watch, ``Tiger 
Chairs and Cell Bosses: Police Torture of Criminal Suspects in China,'' 
May 2015, 131; He Xin, ``Dai Yuqing Case: When Witnesses Do Not Appear 
in Court, How To Distinguish Between Truth and Falsehood? '' [Dai 
yuqing an: zhengren bu chuting zhenjia he bian], Caixin, 27 November 
14.
    \155\ Ouyang Yanqin, ``Courts Slow To Throw Illegally Collected 
Evidence Out of Trials,'' Caixin, 8 January 15; Liu Ling, ``Lawyer Liu 
Ling: Speaking Again on Illegal Evidence Exclusion Rules'' [Liu ling 
lushi: zai tan feifa zhengju paichu guize], Lawyer Liu Ling's Blog, 9 
March 15.
    \156\ Human Rights Watch, ``Tiger Chairs and Cell Bosses: Police 
Torture of Criminal Suspects in China,'' May 2015, 82.
    \157\ Ibid.
    \158\ UN Committee against Torture, Annotated Provisional Agenda, 
CAT/C/56/1, 4 September 15, item 4; UN Committee against Torture, 
``List of Issues in Relation to the Fifth Periodic Report of China,'' 
CAT/C/CHN/Q/5/Add.1, 15 June 15, paras. 31-32. The Committee most 
recently reviewed China in 2008. See UN Committee against Torture, 
Consideration of Reports Submitted by States Parties Under Article 19 
of the Convention: Concluding Observations of the Committee against 
Torture: China, Adopted by the Committee at Its 41st Session (3-21 
November 2008), CAT/C/CHN/CO/4, 12 December 08.
    \159\ See, e.g., Letter From Human Rights Watch to Members of the 
UN Committee against Torture, Office of the UN High Commissioner for 
Human Rights, 12 February 15, 5-7; China Human Rights Lawyers Concern 
Group Limited, ``An NGO Submission to the UN Committee Against Torture 
for the LOIs and LOIPR of the 54th Session for the 6th Periodic Report 
of the People's Republic of China on the Implementation of the 
Convention Against Torture and Other Cruel, Inhuman or Degrading 
Treatment or Punishment,'' 9 February 15, paras. 2-3; Chinese Human 
Rights Defenders, ``Specific Information on the Implementation of the 
Convention against Torture and Other Cruel, Inhuman or Degrading 
Treatment or Punishment,'' 9 February 15, paras. 1, 2, 11.
    \160\ Supreme People's Court, Supreme People's Court Provisions on 
Procedures for Sentence Commutation and Parole Case Hearings [Zuigao 
renmin fayuan guanyu jianxing, jiashi anjian shenli chengxu de 
guiding], reprinted in China Court Network, issued 23 April 14, 
effective 1 June 14.
    \161\ Supreme People's Procuratorate, Supreme People's 
Procuratorate Provisions on Handling Commuted Sentences and Parole 
[Zuigao renmin jianchayuan banli jianxing, jiashi anjian gui-
ding], issued and effective 27 August 14.
    \162\ Ministry of Justice, Provisions on Work Procedures for 
Prisons Proposing Commutations or Parole [Jianyu tiqing jianxing jiashi 
gongzuo chengxu guiding], reprinted in PRC Central Government, issued 
11 October 14, effective 1 December 14.
    \163\ ``China Punishes Officials for Illegal Sentence Reductions,'' 
Xinhua, 9 March 15. See also Zhang Hong, ``Abuse of Parole System 
Targeted in Corruption Crackdown,'' South China Morning Post, 25 
February 14; `` `Commutation After an Appointed Time,' `Bail Instead of 
Medical Treatment,' `Pay To Get Out'--Committee Members Fiercely Debate 
`Covert Jailbreaks' Phenomenon'' [``Dao dian jianxing'' ``bao er bu 
yi'' ``ti qian chulong''--daibiao weiyuan reyi ``bianxiang yueyu'' 
xianxiang], Xinhua, 11 March 15; PRC Criminal Law [Zhonghua renmin 
gongheguo xingfa], passed 1 July 79, amended 14 March 97, effective 1 
October 97, amended 25 December 99, 31 August 01, 29 December 01, 28 
December 02, 28 February 05, 29 June 06, 28 February 09, 25 February 
11, art. 81.
    \164\ Li Jing, ``Supreme People's Court Releases Eight Typical 
Cases of Commutation, Parole, and Serving Time Outside of Prison'' 
[Zuigao fa fabu jianxing, jiashi, zan yu jianwai zhixing 8 jian 
dianxing anli], People's Daily, 13 February 15.
    \165\ Ministry of Justice, Ministry of Justice Opinion on Further 
Deepening Prison Affairs Openness [Sifabu guanyu jinyibu shenhua yu wu 
gongkai de yijian], reprinted in China Court Network, 1 April 15. See 
also Yuan Dingbo, ``202 Prisons Establish Platform for Handling 
Commutation, Parole, and Serving Time Outside of Prison Cases'' [202 
suo jianyu jiancheng jian jia zan ban'an pingtai], Legal Daily, 11 May 
15.
    \166\ Danzeng Sangzhou, ``Ministry of Justice Answers Question of 
Commutation and Parole: Criminals on Medical Parole All Brought Back To 
Be Checked'' [Sifabu huiying jianxing jiashi zhiyi: baowaijiuyi zuifan 
dou daihui jiancha], China News Service, 5 November 14.
    \167\ Austin Ramzy, ``In China, an Ingenious Scheme for Getting Out 
of Jail Early,'' New York Times, Sinosphere (blog), 20 January 15; 
``China: Wealthy Prisoners Buy `Get Out of Jail' Patents,'' BBC, 19 
January 15; Gao Yuyang et al., ``Have `Prison Inventors' Already Become 
a Supply Chain? '' [``Jianyu famingjia'' yi cheng chanyelian?], Beijing 
Youth Daily, 19 January 15.
    \168\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, arts. 81-86.
    \169\ Dui Hua Foundation, ``Dui Hua Welcomes Release of American 
Geologist Xue Feng,'' 3 April 15; Xue Feng, ``Thank You,'' reprinted in 
University of Chicago, Department of Geophysical Sciences, Faculty Page 
of David Rowley, 4 April 15.
    \170\ Keith B. Richburg, ``China Sentences American Geologist to 8 
Years for Stealing State Secrets,'' Washington Post, 5 July 10; Andrew 
Jacobs, ``China Upholds Conviction of American Geologist,'' New York 
Times, 18 February 11; ``Beijing Court Upholds Eight-Year Sentence for 
American Geologist Xue Feng,'' Congressional-Executive Commission on 
China, 23 February 11.
    \171\ Amnesty International, ``Death Sentences and Executions 
2014,'' 31 March 15, 2.
    \172\ Ibid.
    \173\ Mara Hvistendahl, ``China Rethinks the Death Penalty,'' New 
York Times, 8 July 14.
    \174\ Dui Hua Foundation, ``China Executed 2,400 People in 2013,'' 
20 October 14; Amnesty International, ``Death Sentences and Executions 
2014,'' 31 March 15, 11. Amnesty International reported that 
``[b]etween June and August [2014], 21 people were executed in the 
Xinjiang Uighur Autonomous Region in relation to separate terrorist 
attacks.''
    \175\ ``No Change Seen in China's Use of Death Penalty Amid Broad 
Public Support,'' Radio Free Asia, 2 April 15; Zachary Keck, ``China 
Overwhelmingly Supports Death Penalty for Corrupt Officials,'' The 
Diplomat, 7 November 14; Lijia Zhang, ``China's Death-Penalty Debate,'' 
New York Times, 29 December 14; Margaret K. Lewis, ``Leniency and 
Severity in China's Death Penalty Debate,'' Columbia Journal of Asian 
Law, Vol. 24, No. 2, 2011, 304-32.
    \176\ Chinese Communist Party Central Committee, Decision on 
Certain Major Issues Regarding Comprehensively Deepening Reforms 
[Zhonggong zhongyang guanyu quanmian shenhua gaige ruogan zhongda wenti 
de jueding], 12 November 13, sec. 9(34).
    \177\ National People's Congress, ``Explanation of `People's 
Republic of China Criminal Law Amendment (Nine) (Draft),' '' [Guanyu 
``zhonghua renmin gongheguo xingfa xiuzheng'an (jiu) (cao'an)'' de 
shuoming], 3 November 14, sec. 2(1).
    \178\ National People's Congress Standing Committee, PRC Criminal 
Law Amendment (Nine) [Zhonghua renmin gongheguo xingfa xiuzheng'an 
(jiu)], issued 29 August 15, effective 1 November 15, items 9, 11, 41, 
49; Zhang Yi, ``Fewer Crimes To Be Subject to Death Penalty,'' China 
Daily, 31 August 15. See also National People's Congress Legal 
Committee, ``Deliberative Conclusions Report Regarding `PRC Criminal 
Law Amendment (Nine) (Draft)' '' [Guanyu ``zhonghua renmin gongheguo 
xingfa xiuzheng'an (jiu) (cao'an)'' shenyi jieguo baogao], 24 August 
15, item 8. The revisions to the PRC Criminal Law further heighten the 
legal requirements for executing prisoners who are sentenced to death 
with a two-year reprieve. National People's Congress Standing 
Committee, PRC Criminal Law Amendment (Nine) [Zhonghua renmin gongheguo 
xingfa xiuzheng'an (jiu)], issued 29 August 15, effective 1 November 
15, item 2.
    \179\ Susan Trevaskes, The Death Penalty in Contemporary China (New 
York: Palgrave Macmillan, 2012), 42-46; Dui Hua Foundation, ``China 
Mulls Harsher Penalties for Protesters, `Cults'; Fewer Capital 
Crimes,'' Dui Hua Foundation Human Rights Journal, 6 August 15.
    \180\ Susan Finder, ``What Does the 4th Plenum Mean for Death 
Penalty Reviews? '' Supreme People's Court Monitor (blog), 10 November 
14.
    \181\ Ren Zhongyuan, ``Death Penalty Review Power Held for Eight 
Years; How Does the Supreme People's Court Stay Executions'' [Sixing 
fuhe quan shang shou ba nian zuigao fayuan ruhe daoxia liuren], 
Southern Weekend, 16 October 14; ``The Death Penalty: Strike Less 
Hard,'' Economist, 3 August 13.
    \182\ Supreme People's Court, Measures Concerning Listening to 
Defense Lawyers' Opinions in Handling Death Penalty Review Cases 
[Zuigao renmin fayuan guanyu banli sixing fuhe anjian tingqu bianhu 
lushi yijian de banfa], issued 29 January 15, effective 1 February 15; 
Dan Yuxiao, ``In Death Penalty Review Cases, Lawyers Opinions Shall Be 
Heard'' [Sixing fuhe anjian lushi yijian ying bei tingqu], Caixin, 29 
January 15. For a contrasting view see Chinese Human Rights Defenders, 
``New Rules on Lawyers' Input on Death Penalty Reviews Too Weak To Cut 
Down on Executions,'' 5 February 15.
    \183\ Yang Tao, ``It's Possible To Have a System of Hesitating in 
Implementation of the Death Penalty'' [Sixing zhixing youyu zhidu zhe 
ge keyi you], Beijing Youth Daily, 12 February 15; Lijia Zhang, 
``China's Death Penalty Debate,'' New York Times, 29 December 14.
    \184\ Didi Kirsten Tatlow, ``Courts in China Face Balancing Act on 
Domestic Abuse,'' New York Times, Sinosphere (blog), 6 May 15; Ren 
Zhongyuan, ``Shadow of Domestic Abuse Over Protection of Women's 
Rights; Failure To Fully Reverse Li Yan Case'' [Jiabao yinying xia de 
funu quanyi baohu weineng wanquan fanzhuan de li yan an], Southern 
Weekend, 30 April 15. See also Chenjie Ma, ``China's Death Penalty 
Practice Undermines the Integrity of the Death Penalty as a Sentencing 
Option,'' Australian Journal of Asian Law, Vol. 15, No. 2, 7.
    \185\ Chen Baocheng, ``Continuing To Ask About the Heilongjiang 
Incident: How To Monitor `Death Row? ' '' [Zai wen heilongjiang 
shijian: ruhe kanguan ``sixingfan''?], Caixin, 3 September 14.
    \186\ Human Rights Watch, ``Tiger Chairs and Cell Bosses: Police 
Torture of Criminal Suspects in China,'' May 2015, 5.
    \187\ ``China Will Completely Stop Use of Executed Prisoners' 
Organs as Donor Source of Organ Transplants'' [Zhongguo jiang quanmian 
tingzhi shiyong siqiu qiguan zuowei yizhi gongti laiyuan], China 
National Radio, reprinted in Xinhua, 2 January 15; ``China To Scrap 
Organ Harvesting From Executed Prisoners,'' China Daily, 4 December 14; 
``Weaning China Off Organs From Executed Prisoners,'' Lancet, Vol. 385, 
No. 9962, 3 January 15. See also Tania Branigan, ``China To Stop Using 
Executed Prisoners as Source of Transplant Organs,'' Guardian, 4 
December 14; Alex Hosenball and Cho Park, ``China's New Year's 
Resolution: No More Harvesting Executed Prisoners' Organs,'' ABC, 1 
January 15. For background information on the topic, see Adnan Sharif 
et al., ``Organ Procurement From Executed Prisoners in China,'' 
American Journal of Transplantation, 2014.
    \188\ ``China To Scrap Organ Harvesting From Executed Prisoners,'' 
China Daily, 4 December 14.
    \189\ ``Loopholes Remain in China's Organ Harvesting Ban,'' Radio 
Free Asia, 7 December 14; Katie Hunt, ``Why China Will Struggle To End 
Organ Harvesting From Executed Prisoners,'' CNN, 5 December 14; Liz 
Kerr and Deborah Collins-Perrica, ``Correspondence: Organ 
Transplantation in China: Concerns Remain,'' Lancet, Vol. 385, No. 
9971, 7 March 15, 856. For an example of a preliminary report on organ 
donations following the reforms, see Jia Peng, ``Huang Jiefu: Use of 
Executed Prisoners' Organs Stopped for Two Months, Citizens Donate 937 
Organs'' [Huang jiefu: siqiu qiguan ting yong liang yue gongmin juan 
937 ge qiguan], Beijing News, 6 March 15.
    \190\ ``Weaning China Off Organs From Executed Prisoners,'' Lancet, 
Vol. 385, No. 9962, 3 January 15, 1.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
